audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Iowa Tribe of Kansas and Nebraska White Cloud, Kansas
GR-50-98-022
August 17, 1998 
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed the audit of one grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Iowa Tribe of Kansas and Nebraska (Iowa Tribe).  The Iowa Tribe received a grant of $1,306,606 to hire 14 sworn police officers under the Universal Hiring Program (UHP).  The purpose of the officers is to establish community policing efforts.  The Iowa Tribe did not have a law enforcement organization in place prior to the award of this grant.

	In brief, our audit determined the following:

The grant award should be reduced by approximately $436,054 which we project will not be required for program costs.  

	The Department Initial Report was not submitted to COPS.

This item is discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.